No. 19-67
In The

Supreme Court of t^e fHntteb States
United

States

Of America

,

Petitioner,
v.
Evelyn

Sine

ne ng

-Smith ,

Respondent.
On Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF SERVICE

I, Jeremy Girton, a member of the bar of this Court, hereby certify that, on this
22nd day of January, 2020, all parties required by the Rules of this Court to be served
have been served. Three copies of the Brief for Religious Organizations as Amici
Curiae in Support of Respondent in the above-captioned case were sent via U.S. Mail
to the following counsel of record:
Noel J. Francisco
Solicitor General

United States Depar tment of Justi
950 Pennsylvania Avenue, NW
Washington, DC 20530

SupremeCtBriefs@USDOJ.gov

Counsel of Record for Petitioner

Mark Christopher Fleming
ce

WlLMERHALE
60 State Street
Boston, MA 02109

mark.fleming@wilmerhale.com
Counsel of Record for Respondent

I also certify that an electronic version of the aforementioned document was
transmitted by e-mail to counsel at the e-mail addressgs-listed-above.
rton

